BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-315
JOSE SANTOS SANCHEZ, ETUX.,

Petitioners,
V.

ALEJANDRO N. MAYORKAS, SECRETARY OF HOMELAND
SECURITY, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief Amicus Curiae Immigration
Reform Law Institute in Support of Respondents
contains 3,044 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on March 31, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

